No. _________
IN THE SUPREME COURT OF THE UNITED STATES
444444444444444444444444U
GILBERT CARRASCO,
Petitioner,
-vUNITED STATES OF AMERICA,
Respondent.
4444444444444444444444444U
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
4444444444444444444444444U
PROOF OF SERVICE AND FILING
Todd W. Burns, being first duly sworn, states that pursuant to Rule 29.4(a) of this Court, the
enclosed Motion for Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit, on behalf of Gilbert Carrasco, were filed by
depositing an original and ten copies of each in the United States mail, first class postage prepaid,
on July 21, 2020, addressed to Clerk, Supreme Court of the United States, 1 First Street NE,
Washington, D.C. 20543.
Furthermore, service of both filings referred to above was made on July 21, 2020, by
depositing a copy of each into the United States mail, first class postage prepaid, addressed to
Solicitor General of the United States, Department of Justice, 950 Pennsylvania Ave. NW, Room
5614, Washington, D.C. 20530.
/s/ Todd W. Burns
TODD W. BURNS, Declarant

